                                           AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Excessing of Computers Used for
Unclassified Controlled Information at
the Idaho National Laboratory




DOE/IG-0757                                  February 2007
                                  Department of Energy
                                      Washington, DC 2 0 5 8 5

                                      February 16, 2007



MEMORANDUM FOR TH SECRETARY

FROM:                    Gregory H. Friedinail
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Excessing of Computers
                         Used for Uilclassified Controlled Information at the Idaho National
                         Laboratory"

BACKGROUND

I11 suppoi-t of its mission, the Department of Energy spends over $2 billioil each year on
infonnation teclulology and has a current inventory of approxiinately 800 info~mationsystems,
including up to 115,000 personal computers, many powerful supercomputers, numerous servers,
and a broad array of related peripheral equipment. The unclassified computers and electroil~c
inelllory devices in these infomlation technology systeins often contain "unclassified controlled
infoimation." This tenn includes unclassified controlled nuclear information, proprietary
information, export controlled information, official use only inforn~ation,and personally
 identifiable infom~ation(PII), which can include employees' social security numbers, places of
birth, and dates of birth.

When unclassified computers and other electronic memory devices are determined to be excess,
they may be transferred for reuse within Department facilities or other governmental agencies,
donated for educational purposes, sold, or salvaged. To prevent the unauthorized disseminatioil
of unclassified controlled information, Department policy requires that, during the excessing
process, data stored on computer hard drives and other memory devices must be properly
removed or physically destroyed.

During an Office of Inspector General criminal investigation, it was determined that the
Depai-tment's Idaho National Laboratory (INL) sold a computer containing unclassified
controlled infonnation, including PII, at a public auction in October 2004. Therefore, we
initiated an inspection to evaluate the adequacy of INL's policies and intenlal controls for
excessing computers and other electronic memory devices.

RESULTS OF INSPECTION

We concluded that INL did not have adequate policies and internal controls for excessing
computers and other electronic inemory devices to prevent the unauthorized dissemination of
unclassified controlled information. Specifically, we found that INL did not always excess
computers in accordance with applicable policies and procedures, which was clearly exemplified
by its sale of the computer still containing unclassified controlled infonnation. We did not,




                                     @    Printed with soy ink on recycled paper
l~owever,identify any other unauthorized releases of unclassified controlled infonnation. Our
inspectio~~
          also found that:

       INL's forinel- inanagelneilt coiltractor did not revise and implement intenla1 policies and
       procedures to reflect new requireinents in a Depai-tinent directive on clearing, sanitizing,
       and destroyiilg infornlation system storage media, memory devices, and other related
       hardware that was issued in February 2004. This may have been a contributiilg factor to
       the above inentioiled iinproper release of a coinputer containing uilclassified controlled
       information; and

       When a new compaily was awarded a contract in November 2004 to manage INL, the
       Department's Idaho Operations Office delayed incorporating Department directives on
       clearing, sanitizing, and destroying hard drives and memory devices into the contract. As
       a result, INL contiilued to follow existing intenlal policies and procedures and did not
       implement the requirements ill the Department's directives for approximately 16 months.

In addition, while reviewing internal controls, we observed that:

       During the excessing process, INL could improve the physical safeguards provided for
       con~putersand other electronic memory devices that potentially contained unclassified
       coiltrolled infonnation.

The Depal-tment has experienced a number of problems in its efforts to appropriately excess
coinputers and peripherals; control electronic memory devices; and, in general, administer its
contracts. Many of these probleins have been documented in prior reports issued by the Office
of Inspector General. Based on our work in these areas, we have concluded that a key
compoi~entto resolving these probleins is the promulgation, implementation, and execution of
effective policies and procedures. In that vein, to its credit, the Department took the important
step of issuing complex-wide policy intended to specifically address the appropriate excessing of
coinputers and the handling of electronic memory devices. However, at INL, as this report
demonstrates, that effort was undennined when implementation of the Department's policy was
delayed for over two years. Notably, 16 months of the delay occurred when Federal officials
failed to incorporate the policy into the newly awarded IIVL site management contract. In our
view, these delays were inconsistent with the Department's efforts to enhance the manner in
which it administers its major contracts. Thus, we made several recommendations to
management designed to enhance the security of sensitive information and to improve contract
administration.

MANAGEMENT REACTION

111 respoilding to a draft of this report, inanagement concurred with our recon~n~endations
                                                                                         and
identified corrective actions that have been or will be taken to address them. We found
management's comrneilts to be responsive to our findings and recommendations.

Attachment
cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary of Science
      Administrator, National Nuclear Security Admi~~istration
      Chief of Staff
      Assistant Secretary for Nuclear Energy
      Manager, Idaho Operations Office
      Director, Office of Internal Review (CF-1.2)
      Audit Liaison, Idaho Operations Office
EXCESSING OF COMPUTERS USED FOR UNCLASSIFIED
CONTROLLED INFORMATION AT THE IDAHO NATIONAL
LABORATORY


TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective                       1

              Observations and Conclusions                     2


              DETAILS OF FINDINGS

              Release of Unclassified Controlled Information   3

              INL Policies and Procedures                      3

              Delayed Policy Implementation                    4

              Safeguards for Hard Drives                       5


              RECOMMENDATIONS                                  7


              MANAGEMENT COMMENTS                              8


              INSPECTOR COMMENTS                               8


              APPENDICES

              A. Scope and Methodology                         9

              B. Management Comments                           10

              C. Prior Reports                                 11
Overview

INTRODUCTION    The Idaho National Laboratory (INL) is a Department of Energy
AND OBJECTIVE   (DOE) multi-program national laboratory that supports the mission
                of nuclear and energy research, science, and national defense.
                Battelle Energy Alliance, LLC (BEA), was awarded the contract to
                manage INL in November 2004 and assumed management
                responsibility for INL in February 2005. Prior to February 2005,
                Bechtel BWXT, LLC (BBWI) was the management contractor.

                In support of research and other mission-related programs at its
                laboratories and facilities, DOE spends over $2 billion each year on
                information technology and has a current inventory of approximately
                800 information systems, including up to 115,000 personal computers,
                many powerful supercomputers, numerous servers, and a broad array of
                related peripheral equipment. The unclassified computers and
                electronic memory devices in these information technology systems
                often contain “unclassified controlled information.” This term includes
                unclassified controlled nuclear information, proprietary information,
                export controlled information, official use only information, and
                personally identifiable information (PII), which can include employees’
                social security numbers, places of birth, and dates of birth.

                DOE has long recognized the importance of protecting unclassified
                controlled information stored on computers and other electronic
                memory equipment, particularly when this equipment is no longer
                needed and becomes excess property. Excess property items,
                including unclassified computers, may be transferred for reuse
                within DOE facilities or other governmental agencies, donated for
                educational purposes, sold, or salvaged. To prevent the
                unauthorized dissemination of unclassified controlled information,
                DOE policy requires that, during the excessing process, data stored
                on computer hard drives and other memory devices must be
                properly removed or physically destroyed. Until recently, DOE
                approved methods for removing and/or destroying data on memory
                devices included: overwriting the data three times (often referred
                to as sanitizing); electronically destroying the data on the memory
                devices by using a degaussing machine; and physically
                pulverizing, incinerating, smelting, or disintegrating the memory
                devices. However, in September 2006, as a result of security
                concerns raised regarding degaussing, DOE’s Chief Information
                Officer issued guidance that degaussing should not be used as the
                sole means to purge data from hard disk drives or other magnetic
                computer storage media or devices.



Page 1                                          Excessing of Computers Used
                                                for Unclassified Controlled
                                                Information at the
                                                Idaho National laboratory
                   During an Office of Inspector General criminal investigation, it
                   was determined that INL sold a computer containing unclassified
                   controlled information, including PII, at a public auction in
                   October 2004. Therefore, we initiated an inspection to evaluate the
                   adequacy of INL’s policies and internal controls for excessing
                   computers and other electronic memory devices.

OBSERVATIONS AND   We concluded that INL did not have adequate policies and internal
CONCLUSIONS        controls for excessing computers and other electronic memory
                   devices to prevent the unauthorized dissemination of unclassified
                   controlled information. Specifically, we found that INL did not
                   always excess computers in accordance with applicable policies and
                   procedures, which was clearly exemplified by its sale of the
                   computer still containing unclassified controlled information. We
                   did not, however, identify any other unauthorized releases of
                   unclassified controlled information. Our inspection also found that:

                   •   INL’s former management contractor, BBWI, did not revise
                       and implement internal policies and procedures to reflect new
                       requirements in a DOE directive on clearing, sanitizing, and
                       destroying information system storage media, memory devices,
                       and other related hardware that was issued in February 2004.
                       This may have been a contributing factor to the above
                       mentioned improper release of a computer containing
                       unclassified controlled information; and

                   •   The DOE Idaho Operations Office delayed incorporating DOE
                       directives on clearing, sanitizing, and destroying hard drives
                       and memory devices into BEA’s management contract. As a
                       result, INL continued to follow existing internal policies and
                       procedures and did not implement the requirements in the DOE
                       directives for approximately 16 months.

                   In addition, while reviewing internal controls, we observed that:

                   •   During the excessing process, INL could improve the physical
                       safeguards provided for computers and other electronic
                       memory devices that potentially contained unclassified
                       controlled information.

                   Reviews by the Office of Inspector General at other DOE
                   laboratories have also identified weaknesses in the excessing of
                   computers and other electronic memory devices. A list of the
                   associated reports is found in Appendix C.




Page 2                                              Observations and Conclusions
Details of Findings

RELEASE OF            We found that INL did not always excess computers in accordance
UNCLASSIFIED          with applicable policies and procedures, which was clearly
CONTROLLED            exemplified by its sale of the computer still containing unclassified
INFORMATION           controlled information. At the time of the computer’s sale in
                      October 2004, INL was under BBWI management and was
                      following an internal Management Control Procedure that had
                      been in effect since October 2000. Under the Procedure,
                      computers that met the requirements for reuse or donation to
                      educational institutions were required to have the hard drives
                      sanitized, and computers that did not meet these requirements were
                      required to have the hard drives removed and degaussed, with the
                      computers (absent the hard drives) sold at auction.

                      According to INL property records, the computer in question was
                      excessed in June 2004, evaluated by INL personnel and designated
                      to be sold, and placed on a pallet with a number of other computers
                      designated for sale to the public. The pallet of computers was sold
                      in a bulk sale in October 2004. According to DOE officials, after
                      the computer was sold, it came into the possession of an individual
                      with a criminal history, who discovered that the computer’s hard
                      drive was still intact and contained unclassified controlled
                      information, including PII. According to DOE officials, the
                      individual retained the hard drive until June 2006, when INL and
                      DOE officials became aware of its existence and recovered it. The
                      previously mentioned criminal investigation did not reveal any
                      evidence of criminal exploitation of the PII data on the hard drive.

INL POLICIES          We also found that BBWI did not revise and implement internal
AND PROCEDURES        policies and procedures to reflect new requirements in a DOE
                      directive on clearing, sanitizing, and destroying information
                      system storage media, memory devices, and other related hardware
                      that was issued in February 2004. This may have been a
                      contributing factor to the above mentioned improper release of an
                      unsanitized computer containing unclassified controlled
                      information.

                      DOE Notice 205.12, “Clearing, Sanitizing, and Destroying
                      Information System Storage Media, Memory Devices, and Other
                      Related Hardware,” was issued in February 2004 and had a 90-day
                      implementation requirement. The notice was incorporated as a
                      modification into the BBWI contract in May 2004. However,
                      BBWI’s internal Management Control Procedure was never
                      modified to incorporate the new requirements of the Notice, which
                      included additional internal controls during the excessing of
                      computers.



Page 3                                                               Details of Findings
                 DOE Notice 205.12 required the sanitization or degaussal of
                 computer hard drives during the excessing process and that this action
                 be documented, to include the hard drive description, classification
                 level, purpose, and procedure used. In addition, the Notice required
                 computers to be randomly sampled to verify the sanitation or
                 degaussing process was successful prior to the computers leaving a
                 DOE-controlled environment. These requirements were not being
                 followed at INL. If these requirements had been followed, INL might
                 have identified the unsanitized computer before it was sold.

DELAYED POLICY   We further found that the DOE Idaho Operations Office delayed
IMPLEMENTATION   incorporating DOE Notice 205.12 and its successor directive into
                 the new site management contract with BEA. As a result, INL
                 continued to follow existing internal policies and procedures and
                 did not implement the requirements in the DOE directives for
                 approximately 16 months. This impacted INL’s excessing of
                 computers, as discussed above, as well as other electronic
                 equipment with memory devices, such as facsimile and copier
                 machines, which were not being examined prior to excessing to
                 ensure they did not retain data.

                 We determined DOE Notice 205.12 was not included in BEA’s
                 contract when the contract for management of INL was awarded in
                 November 2004. INL continued to operate under the existing internal
                 Management Control Procedure. In June 2005, the Notice was
                 superseded by DOE Manual 205.1-2, “Clearing, Sanitization, and
                 Destruction of Information System Storage Media, Memory Devices,
                 and Related Hardware.” However, the Manual was not incorporated
                 into BEA’s contract until March 2006. Between November 2004 and
                 March 2006, a period of approximately 16 months, INL continued to
                 operate under the existing internal Management Control Procedure.

                 We were told by DOE Idaho Operations Office officials that the
                 delay in implementing the DOE policies was due, in part, to INL’s
                 management contract change. In late 2003, the Request for
                 Proposal (RFP) to manage INL had been finalized, with the draft
                 RFP being issued on February 4, 2004. Since the Notice was not
                 issued until February 19, 2004, it was not included in the draft
                 RFP. Idaho Operations Office officials told us that their plan was
                 to update the new contract once it was awarded. A review of
                 records indicated BEA was awarded the management contract in
                 November 2004 and that the process for modifying BEA’s contract
                 to incorporate the Manual began in January 2005. However, the
                 modification was not completed until March 2006. Subsequently,
                 BEA implemented a new internal policy in May 2006 that
                 incorporated the requirements of the Manual.



Page 4                                                         Details of Findings
SAFEGUARDS FOR   During our inspection of internal controls, we also observed that,
HARD DRIVES      during the excessing process, INL could improve the physical
                 safeguards provided for computers and other electronic memory
                 devices that potentially contained unclassified controlled
                 information. Specifically, numerous hard drives that INL officials
                 said potentially contained unclassified controlled information were
                 being stored outdoors in a wooden box that could be accessed by
                 unauthorized persons. Other such hard drives were being stored in
                 cardboard boxes within a warehouse area in INL’s Personal
                 Computer Redistribution (PCR) Center that could be accessed by
                 non-warehouse personnel. In addition, we observed that
                 computers and computer hard drives that may contain unclassified
                 controlled information were potentially vulnerable to unauthorized
                 access during the excess property receiving process. Additional
                 discussion of these observations is provided below.

Storage of       INL officials told us that, during the computer excessing process,
Hard Drives      standard sized hard drives were removed and electronically
                 degaussed. However, they said the degaussing machine was not
                 able to degauss older, larger hard drives due to the physical
                 limitations of the machine. Hard drives that could not be
                 degaussed were either placed in cardboard boxes inside the PCR
                 Center, which could be accessed by non-warehouse personnel, or
                 in a wooden box located in an open area outside INL’s excess
                 property warehouse, as shown in Picture 1.




                       Wooden Box Containing Computer Hard Drives
                                     Picture 1

                 The wooden box was located in a property protection area that was
                 accessible to visitors and others who had access to INL. When we
                 examined the wooden box in July 2006, it was nearly full of hard
                 drives. INL officials told us that the box had recently been bound


Page 5                                                          Details of Findings
               with metal straps in preparation for shipping. We noted that, prior
               to the banding, the only security afforded the box was a hasp and
               padlock. We also noted that the hasp was secured by external
               screws that could have been easily removed with a simple
               instrument, such as a screw driver.

               INL officials told us that the box had been outside for at least two
               years and contained a mixture of degaussed and non-degaussed/
               non-sanitized hard drives excessed from INL. INL officials told us
               that it was possible some of the non-degaussed/non-sanitized hard
               drives contained unclassified controlled information. The nature
               of the work performed at INL supports the likelihood of such a
               possibility.

Transport of   We were told by INL officials that the wooden box and the
Hard Drives    cardboard boxes in the PCR Center containing the degaussed and
               non-degaussed/non-sanitized hard drives were in the process of
               being shipped to Chicago for destruction and recycling. INL
               officials said that one of the transportation methods being
               considered was transporting the hard drives in the wooden box and
               the cardboard containers via an open flat-bed truck. DOE Manual
               205.1-2 requires that hard drives must be degaussed or sanitized
               prior to leaving a DOE-controlled environment. We expressed
               concern to INL management officials about the storage of the
               non-degaussed/non-sanitized hard drives and their leaving a DOE-
               controlled environment. As a result of our concerns, INL
               management officials reviewed the associated issues and told us
               that all hard drives had been moved into the excess property
               warehouse and physically secured pending a final decision on the
               disposition of the hard drives.

               On September 12, 2006, shortly after the completion of our
               inspection field work at INL, the DOE Chief Information Officer
               issued a memorandum on “Interim Cyber Security Guidance
               Concerning Disposal of Computer Storage Media, Including Hard
               Disk Drives.” It stated that, due to security concerns raised
               regarding degaussing, no hard disk drive or other magnetic
               computer storage media or device should be sold, donated, or
               transferred to an off-site entity for disposal, pending the issuance
               of new long-term cyber security guidance. Subsequently, we were
               told by INL management officials that all hard drives would
               remain physically secured within the excess property warehouse
               pending the issuance of the new long-term cyber security guidance
               and its incorporation into INL internal policies and procedures.




Page 6                                                        Details of Findings
Storage of Hard Drives   During a visit to INL’s excess property warehouse, we determined
in the Excess Property   that computers and computer hard drives that may contain
Warehouse                unclassified controlled information were potentially vulnerable to
                         unauthorized access during the excess property receiving process.
                         We observed that computer equipment waiting to be brought into
                         accountability as part of the receiving process was located within
                         several feet of items awaiting sale to the public as part of an excess
                         property auction. We also observed unescorted non-INL personnel
                         walking around the warehouse among unsanitized computers and
                         hard drives in the receiving area. INL officials told us that, due to
                         the limited number of employees working at the excess property
                         warehouse, computer equipment may remain in the receiving area
                         for as long as two weeks. INL officials also said that the excess
                         property warehouse was a property protection area, with access
                         limited to INL employees and authorized visitors such as potential
                         bidders for auction items and individuals examining equipment for
                         donation. However, INL officials acknowledged that, due to
                         limited staff, once visitors were identified and authorized to enter
                         the warehouse, the visitors were allowed to examine property
                         unescorted, with only general oversight from warehouse
                         employees.

                         Due to the size of the excess property warehouse, the limited staff,
                         and the multiple access points, it appeared to be very difficult for
                         warehouse personnel to monitor all activities of persons entering
                         the excess property warehouse. We expressed our concerns to INL
                         management about the physical security of computers and memory
                         devices in the receiving area of the excess property warehouse.
                         We were told that a review of the adequacy of the physical security
                         at the excess property warehouse would be conducted to identify
                         possible areas of improvement.

RECOMMENDATIONS          We recommend the Manager, Idaho Operations Office, ensures
                         that:

                         1. The Idaho Operations Office implements DOE directives into
                            INL management contracts in a timely manner.

                         2. INL develops and implements physical security policies and
                            procedures to preclude unauthorized access to computers and
                            other memory devices during the excessing process.

                         3. In the future, INL implements all DOE policy requirements
                            into operational procedures in a timely manner to ensure all
                            excessed memory devices containing unclassified controlled
                            information are properly sanitized, degaussed, or disposed of.



Page 7                                                                  Recommendations
MANAGEMENT   In comments on a draft of our report, management concurred with
COMMENTS     the recommendations and identified corrective actions that have
             been or will be taken to address them. Management’s comments,
             excluding minor editorial comments, are included in their entirety
             at Appendix B.

INSPECTOR    We found management’s comments to be responsive to our
COMMENTS     recommendations. We addressed management’s editorial
             comments as appropriate in the report.




Page 8                              Management and Inspector Comments
Appendix A

SCOPE AND     The field work for this inspection was conducted between July
METHODOLOGY   and August of 2006. We interviewed INL and DOE officials and
              reviewed DOE directives and INL internal policies regarding
              property management and the excessing of computers and memory
              devices. We also conducted an on-site evaluation of the
              operational and internal controls and security of INL’s excess
              property warehouse and INL’s PCR Center. We physically
              examined a number of computers and memory devices at the
              excess property warehouse and reviewed excess property records
              and past excess property sale records.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B




Page 10      Management Comments
Appendix B         (continued)




Page 11      Management Comments
Appendix C

PRIOR REPORTS   The following Office of Inspector General reports are related to the
                excessing of computers and other electronic memory devices.

                “Internal Controls for Excessing and Surplusing Unclassified
                Computers at Los Alamos National Laboratory” (DOE/IG-0734,
                July 2006). This report found that Los Alamos did not follow
                DOE directives and internal policies pertaining to excessing
                computers. As a result, an excessed computer with an intact,
                unsanitized hard drive was sold to the public. Further, the internal
                control failure relating to the excessing and surplusing of this
                computer raised concerns as to whether the hard drives for seven
                other computers excessed at the same time were sanitized and
                removed prior to the computers being sent to auction.

                “Destruction of Classified Hard Drives at Sandia National
                Laboratory-New Mexico” (DOE/IG-0735, August 2006). This
                report found that Sandia did not destroy classified computer hard
                drives in accordance with DOE directives. Sandia did not always
                maintain proper documentation, destroy hard drives on the same
                day they were removed from the site, obtain proper approval for
                off-site destruction of hard drives, and use appropriately cleared
                personnel for the destruction process.

                “Excessing of Computers Used for Unclassified Controlled
                Information at Lawrence Livermore National Laboratory” (draft).
                This report found that for over two years the National Nuclear
                Security Administration (NNSA) delayed implementing at
                Lawrence Livermore National Laboratory (LLNL) two DOE
                directives that provided guidance on clearing, sanitizing, and
                destroying unclassified controlled memory devices. Further, the
                report found that NNSA’s delay in implementing the policies at
                LLNL negatively impacted the way LLNL excessed computers and
                memory devices.




Page 12                                                              Prior Reports
                                                                    IG Report No. DOE/IG-0757

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
